          r*

          e.   -      CLOSEOUT FOR A693080045
          --
     This case
program direc
brought us a le
(the complaina
laboratory of
subject).
                                                         .   ,
     The complainant alleges that the subject and
officials of the university unfairly dismissed the compla-
the subject's research group and, because this is the university's
     laboratory doing research in this area, from the university's
         program. The subject rejected the complainant' s proposed
dissertation research as being not in a suitable topic area and not
of sufficient scientific merit. The complainant argues that his
proposed topic was superior to topics previously approved for other
students. He also claims that the subject prejudiced other faculty
against the plaintiff's research plans. The complainant alleges
that the subject aided other students whose work he found valuable,
both in his own laboratory and at other universities, to receive
PhD. degrees.     The complainant also claims that the subject
illegally searched the complainant's belongings that were piled in
the subject's laboratory, that the subject llcoveredupn the
complainant s allegations about problems in the subjectls
laboratory, and that the university violated the complainant's due
process rights in its handling of his grievances.
     None of these allegations involves an NSF proposal or award.
Although the subject was funded by NSF, the complainant's'
allegations concern the subject's activity as a professor and
graduate advisor and not activities under his NSF grant.
Similarly, the university's grievance procedures deal with the
subject's activities a s advisor and professor and not with his
activities under his NSF grant. Moreover, the allegations, even,if
true, do not constitute misconduct in science.       Most of them
involve no more than arbitrary behavior in the context of an
intellectual dispute between a teacher and his student. The
complainant's eventual dismissal from the university was caused by
his failure to produce an acceptable dissertation proposal and not
by his filing of a grievance.        Hence it does not involve
retaliation against a whistleblower. Searching for papers in one's,
own laboratory is not misconduct.
     This case is closed and no further action will be taken.




Staff Scientist, Oversight
Concurrence:




Donald E. Buzzelli
Deputy Assistant Inspector General,
Oversight




James J. Zwolenik
Assistant Inspector General for Oversight




Montgomery K. Fisher
Counsel to the Inspector General
cc: Signatories
    Inspector General
